         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report




       EPA Needs to Take More Action in
       Implementing Alternative Approaches
       to Superfund Cleanups

       Report No. 2007-P-00026

       June 6, 2007
Report Contributors:	                Carolyn Copper
                                     Tina Lovingood
                                     Barry Parker
                                     Katherine Beam
                                     Kalpana Ramakrishnan




Abbreviations

CERCLIS         C
                	 omprehensive Environmental Response, Compensation, and Liability
                Information System, also known as the “Superfund Information System”
EPA 	           U.S. Environmental Protection Agency
GPRA 	          Government Performance and Results Act
HRS 	           Hazard Ranking System
NACEPT 	        National Advisory Council for Environmental Policy and Technology
NAM	            National Association of Manufacturers
NPL 	           National Priorities List
NRD 	           Natural Resources Damages
OCPL 	          Office of Congressional and Public Liaison
OECA 	          Office of Enforcement and Compliance Assurance
OGC 	           Office of General Counsel
OIG 	           Office of Inspector General
OMB 	           Office of Management and Budget
OPE 	           Office of Program Evaluation
OSRE 	          Office of Site Remediation Enforcement
OSRTI	          Office of Superfund Remediation and Technology Innovation
OSWER 	         Office of Solid Waste and Emergency Response
PRP 	           Potentially Responsible Party
RSD 	           Regional Support Division
SA     	        Superfund Alternative
SAS 	           Superfund Alternative Sites
SPIM 	          Superfund Program Implementation Manual
SSP 	           Superfund Settlements Project
TAP 	           Technical Assistance Plan




Cover photo:	     The Tremont City Landfill is located near Springfield, Ohio, and includes a
                  barrel fill area of about 50,000 buried drums which contain a variety of
                  industrial wastes, bulk liquids, and sludges. Several companies have agreed to
                  clean up the site under EPA’s Superfund Alternative Sites approach.
                  Pictured are workers conducting Phase I remedial investigation activities.
                  Photo courtesy of EPA Region 5, taken by Ohio EPA and CH2M Hill, Inc.
                       U.S. Environmental Protection Agency                                           2007-P-00026

                                                                                                       June 6, 2007

                       Office of Inspector General


                       At a Glance

                                                                          Catalyst for Improving the Environment


Why We Did This Review            EPA Needs to Take More Action in
We evaluated the U.S.             Implementing Alternative Approaches to
Environmental Protection          Superfund Cleanups
Agency’s (EPA’s) Superfund
Alternative (SA) sites
approach. This approach is        What We Found
designed to help achieve
EPA’s strategic goal of           EPA has not implemented effective management tools or controls for the SA
cleaning up hazardous waste       approach. For example, (1) EPA has not finalized the universe of SA sites, (2) it
sites.                            does not have controls over designating SA sites in Superfund information
                                  systems or documenting hazard assessments for SA sites, and (3) it only measures
Background                        results at SA sites for one of six Superfund cleanup measures. Until EPA
                                  addresses these limits in management controls and makes these controls more
Since the 1980s, EPA has used     transparent, it cannot demonstrate outcomes and results of the SA approach.
variations of the SA approach     These limits impede EPA’s ability to make informed decisions about the merits
to clean up Superfund             of, or need for, the approach. EPA also has not provided the public reasonable
National Priorities List (NPL)    assurance that SA sites rise to the level of NPL sites.
equivalent hazardous waste
sites. The SA approach is an      In the recent past, EPA has been criticized for mismanaging the SA approach.
alternative to listing sites on   External parties (including parties that participate in the SA approach) and an
the NPL. The NPL is a list of     internal EPA study report problems with the approach. These problems are likely
the Nation’s highest priority     to continue until EPA addresses internal Agency recommendations to improve the
Superfund sites. Recent           consistency and transparency of the approach. It is also likely to continue until
reviews have reported             EPA addresses other management control weaknesses and develops a
problems in EPA’s managing        communication strategy. This strategy should inform the public about SA sites,
and implementing the SA           the benefits of the SA approach, and community involvement opportunities at SA
approach.                         sites. EPA had recognized improvements were necessary and is working to make
                                  the approach more transparent and consistent.


For further information,
                                  What We Recommend
contact our Office of
Congressional and Public          We recommend EPA track and report cleanup progress at SA sites, and improve
Liaison at (202) 566-2391.        its communications, information, and transparency about the SA approach. EPA
                                  generally concurred with the majority of the recommendations. However, it did
To view the full report,
click on the following link:      not provide sufficient information to describe how or when it would implement
www.epa.gov/oig/reports/2007/     them. The Agency will need to provide sufficient information on its actions to
20070606-2007-P-00026.pdf         address OIG recommendations within 90 days.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                           June 6, 2007

MEMORANDUM

SUBJECT:	              EPA Needs to Take More Action in Implementing Alternative Approaches
                       to Superfund Cleanups
                       Report No. 2007-P-00026


FROM:	                 Wade T. Najjum
                       Assistant Inspector General
                       Office of Program Evaluation

TO:	                   Granta Nakayama
                       Assistant Administrator
                       Office of Enforcement and Compliance Assurance

                       Susan Parker Bodine
                       Assistant Administrator
                       Office of Solid Waste and Emergency Response


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. The OIG
responded to the Agency’s draft report comments by making changes to the report and providing
responses to EPA, as appropriate. This report represents the opinion of the OIG and does not
necessarily represent the final EPA position. Final determinations on matters in this report will
be made by EPA managers in accordance with established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $580,283.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. The Office of Enforcement and Compliance Assurance should
coordinate EPA comments on this report and provide a consolidated response. Your response
should include a corrective action plan including milestone dates. Please email an electronic
version of your response that complies with Section 508 of the Rehabilitation Act to Tina
Lovingood at lovingood.tina@epa.gov. We have no objections to the further release of this
report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Carolyn Copper,
Director for Program Evaluation, Hazardous Waste Issues, at 202-566-0829 or
copper.carolyn@epa.gov; or Tina Lovingood, Project Manager, at 202-566-2906 or
lovingood.tina@epa.gov.
                            EPA Needs to Take More Action in Implementing 

                            Alternative Approaches to Superfund Cleanups 




                                Table of Contents 


Chapters
 1    Introduction ...........................................................................................................      1

              Purpose ..........................................................................................................    1
              Background ....................................................................................................       1
              Scope and Methodology.................................................................................                3
              Prior and Ongoing Reviews............................................................................                 3
              Noteworthy Achievements..............................................................................                 3

 2    EPA Lacks Reliable Information on the
      Superfund Alternative (SA) Sites Approach.......................................................                              5

              EPA Does Not Have a Baseline Universe ......................................................                          5
              EPA Lacks Specific Guidance on Designating Superfund Alternative
                (SA) Sites in the Superfund Information System.......................................                               5
              EPA Has No Guidance That Defines Criteria for “Adequate”
                 Hazard Ranking System (HRS) Documentation.......................................                                  5
              Recommendations .........................................................................................            6
              Agency Comments and OIG Evaluation.........................................................                          7

 3    EPA Is Inconsistent in Measuring Results..........................................................                            8

              The Office of Solid Waste and Emergency Response (OSWER)
                 Does Not Track and Report All Cleanup Measures at SA Sites...............                                          8
              Recommendations .........................................................................................            10
              Agency Comments and OIG Evaluation.........................................................                          10

 4    EPA Has Not Addressed Inconsistencies in Implementing the
      SA Approach..........................................................................................................        11

              EPA Has Not Taken Action on Sharing Site Assessment and
                 HRS Information .......................................................................................           11
              Recommendations .........................................................................................            12
              Agency Comments and OIG Evaluation.........................................................                          13

 5   EPA Has No Communication Strategy on the SA Approach ...............................                                          14

              Public Information on the SA Approach Is Limited and Inconsistent ..............                                     14
              Recommendations .........................................................................................            15
              Agency Comments and OIG Evaluation.........................................................                          16

 Status of Recommendations and Potential Monetary Benefits.................................                                        17
                           EPA Needs to Take More Action in Implementing 

                           Alternative Approaches to Superfund Cleanups 





Appendices
 A   Hazard Ranking System (HRS) ...........................................................................                     18    


 B   Details on Scope and Methodology.....................................................................                       19    


 C   The Government Performance and Results Act (GPRA) and 

     Superfund Performance Measures......................................................................                        20    


 D   Additional Perspectives on the SA Approach ....................................................                             21


 E   Agency Comments on Draft Report and OIG Evaluation ..................................                                       23    


 F   Distribution ............................................................................................................   38    

                                   Chapter 1
                                    Introduction
Purpose

             We sought to determine whether the U.S. Environmental Protection Agency
             (EPA) has created an alternative process within the Superfund program that
             achieves EPA’s strategic objectives of cleaning up hazardous waste sites. We
             addressed the following questions:

                •	 Does EPA have reliable management information (such as a published
                   universe of sites that meet Superfund Alternative Sites (SAS) criteria and
                   have verifiable Hazard Ranking System (HRS) scores) to measure the
                   progress of SAS cleanups and that is easily understood by the public and
                   other interested stakeholders? (See Chapter 2.)

                •	 What strategic goals do SAS activities help EPA accomplish? Do SAS
                   activities meet EPA objective 3.2.2 (cleanup and reuse contaminated land)
                   or objective 3.2.3 (maximize Potentially Responsible Party (PRP)
                   participation at Superfund sites), or both? Does EPA have metrics to
                   measure progress on SAS activities? If so, what are the measures? (See
                   Chapter 3.)

                •	 What activities or issues did the 120-Day Study team identify as
                   “inconsistent” among regions using the SA approach? What is EPA doing
                   to address these issues? (See Chapter 4.)

                •	 Has EPA communicated to the public, participants, and other stakeholders
                   a clear and consistent message defining the SA approach and the expected
                   benefits of using the SA approach? (See Chapter 5.)

Background

             The Comprehensive Environmental Response, Compensation, and Liability Act
             established the Superfund program in 1980. Superfund is the Federal
             Government’s program to clean up the Nation’s uncontrolled and/or abandoned
             hazardous waste sites. EPA addresses the highest priority sites by listing them on
             the Superfund National Priorities List (NPL). The primary method for listing
             sites on the NPL is with the HRS. The HRS is a screening tool that uses
             information from limited investigations to assess the relative potential of sites to
             pose a threat to human health or the environment (see Appendix A for more HRS
             information).


                                               1
                Since the 1980s, the Superfund program has been using alternative approaches to
                clean up hazardous waste sites that had the potential to be listed on the NPL, but
                were not listed. Prior to 2002, EPA called these sites NPL equivalent. In the late
                1990s, or early 2000, the Agency started designating more than 200 sites as NPL
                equivalent in Superfund information systems. EPA first issued guidance on
                Superfund alternative cleanup approaches in 2002. The 2002 guidance changed
                the name of NPL equivalent sites to Superfund Alternative (SA) sites. EPA
                issued revised SAS guidance in 2004. Although EPA has not released a list of
                final SA sites, an April 2004 National Advisory Council for Environmental Policy
                and Technology (NACEPT) report indicated that 109 SA sites accounted for $227
                million in Superfund expenditures between Fiscal Years (FY) 1983 and 2003.1

                Current EPA guidance identifies several characteristics of SA sites. They include:

                     •	 Sites that meet the criteria to be listed on the NPL.
                     •	 Sites where viable and agreeable PRPs enter into enforceable agreements
                        with EPA to perform site studies and/or cleanup work.
                     •	 Sites that are treated in accordance with the practices normally followed at
                        NPL sites.
                     •	 Sites with agreements that contain one or more of the following
                        provisions:
                            o	 PRP-funded technical assistance for the community;
                            o	 Financial assurance mechanisms to protect work continuity and
                                assure completion of site work;
                            o	 An agreement not to challenge NPL listing after partial cleanup;
                                and
                            o	 An agreement of the applicable statute of limitations for Natural
                                Resource Damages (NRD) claims.

                Over the last 3 years, multiple recommendations have been made to improve or
                terminate the SA approach.

                     •	 The April 2004 NACEPT report recommended that the SA approach
                        remain a small pilot program until EPA gathered a broad range of
                        perspectives on the value and limitations of the approach. The Council
                        also recommended that an independent body produce, for public review
                        and comment, a report describing the extent and performance of the SA
                        approach and its compliance with the Comprehensive Environmental
                        Response, Compensation, and Liability Act.



1
  NACEPT, Final Report, April 12, 2004. According to EPA staff, the $227 million includes expenditures before
the SAS guidance was issued and removal expenditures, which are not covered under the SAS guidance. It also
includes some expenditures on non-SAS portions of sites. However, because EPA issued the first SAS guidance in
June 2002, and expended $13 million on 109 SA sites in FY 2003, FY 2003 expenditures were made during a period
where guidance on SAS existed.


                                                      2

                      •	 An April 2004 internal EPA report (120-Day Study) recommended
                         improvements in the consistency of implementing the SA approach. It
                         also recommended that EPA prioritize SA sites along with NPL sites.2
                      •	 As reported by the Office of Management and Budget (OMB) in their
                         2004 Report to Congress on the Costs and Benefits of Federal
                         Regulations, the National Association of Manufacturers (NAM)
                         recommended that EPA terminate the SA approach.3

                  In response to recommendations and comments on the SA approach, the Office of
                  Enforcement and Compliance Assurance (OECA) is now completing an internal
                  study to define a universe of sites, evaluate outcomes and implementation of this
                  approach, and study concerns raised by stakeholders. OSWER and OECA
                  coauthored the relevant guidance documents and share responsibilities for
                  implementing the SA approach. OECA helps regions with settlement negotiation
                  issues and evaluates the SA approach. OSWER maintains EPA’s database and
                  performs the same functions for SA sites as for NPL sites. These functions
                  include reviewing cleanup documents and performing 5-year reviews.

Scope and Methodology

                  We complied with the Government Auditing Standards, issued by the Comptroller
                  General of the United States. We performed our fieldwork from June 2005
                  through July 2006. See Appendix B for additional details on Scope and
                  Methodology.

Prior and Ongoing Reviews

                  We reviewed the three reports that address aspects of the implementation and
                  effectiveness of the SA approach.4 We also regularly coordinated with OECA to
                  determine progress on their ongoing internal review.

Noteworthy Achievements

                  In response to recommendations and comments on the SA approach, OECA is
                  completing an internal study to define a universe of SA sites, evaluate outcomes
                  and implementation of the SA approach, and study concerns raised by
                  stakeholders. EPA has also recognized the need and is working to improve the
                  SA approach to make it more transparent and consistent. During our review,
                  some PRPs we spoke with reported on their positive experiences with the SA
                  approach. These experiences include reduced overhead and oversight costs due to
2
  EPA, Superfund: Building on the Past, Looking into the Future, April 22, 2004. This study is also referred to as the
120-Day Study.
3
  OMB, Progress in Regulatory Reform: 2004 Report to Congress on the Costs and Benefits of Federal Regulations
and Unfunded Mandates on State, Local, and Tribal Entities, 2004. NAM is an organization of federally regulated
companies, some of which are PRPs at Superfund sites and are potentially impacted by Superfund regulations or
SAS practices.
4
  (1) EPA, 120-Day Study; (2) OMB, Progress in Regulatory Reform; and (3) NACEPT, Final Report.


                                                          3

the streamlined process, and knowledgeable and flexible EPA staff. See
Appendix D for details.




                                4

                                            Chapter 2
       EPA Lacks Reliable Information on the Superfund
              Alternative (SA) Sites Approach
                   EPA lacks reliable management information because it has not managed this
                   approach with the necessary controls required to achieve desired outcomes.
                   Without a baseline universe of sites or consistent procedures for identifying sites
                   in CERCLIS5, EPA has not been able to generally assess progress or demonstrate
                   benefits of the SA approach. Consequently, EPA has also not been able to
                   communicate results to the public or make informed decisions about the full
                   merits of the approach. Without guidance on documenting “adequate” SAS
                   hazard ranking scores, EPA does not have controls to prevent the use of
                   potentially incorrect scoring methods. The lack of these controls can lead to
                   waste or inappropriate use of Superfund resources, and can lead some PRPs and
                   other stakeholders to question the SA approach.

EPA Does Not Have a Baseline Universe

                   Since April 2005, EPA has been attempting to determine the universe of SA sites
                   that meets eligibility criteria. However, it has not yet finalized or released the
                   universe. Knowing the baseline is key to determining costs of SA sites, tracking
                   their progress, and measuring and communicating results to the public. These
                   activities allow EPA to make informed decisions about the merits of the approach.

EPA Lacks Specific Guidance on Designating Superfund Alternative (SA) Sites in
the Superfund Information System

                   EPA lacks specific guidance on when to designate (flag) SA sites in the
                   Superfund information system (CERCLIS). Consequently, according to EPA’s
                   SAS evaluation Team Leader: “…all regions handle it [designation of SA sites in
                   CERCLIS] differently.” Lack of guidance and unilateral decisionmaking can
                   result in designations that are inconsistent with guidance and generate poor
                   quality data on the SAS universe. EPA’s SAS evaluation Team Leader
                   acknowledges that flagging a SA site in CERCLIS is a “major issue.” The Team
                   Leader is looking at this issue as part of its ongoing evaluation of the SA
                   approach. In response to our draft report, EPA stated its evaluation report will
                   recommend flagging specific SA agreements.

EPA Has No Guidance That Defines Criteria for “Adequate” Hazard Ranking
System (HRS) Documentation

                   According to current SAS guidance, if it becomes necessary to propose an SA site
                   to the NPL, EPA should have “adequate documentation” supporting an HRS score
5
    Comprehensive Environmental Response, Compensation, and Liability Information System.



                                                       5

          of 28.5 or higher. However, the guidance lacks definitions or criteria for
          “adequate.” OECA has recognized this lack as a problem. During its ongoing
          internal review, OECA discovered that 13 SA sites initially designated by regions
          do not score 28.5 or higher. OECA determined this situation was due to
          inconsistent regional HRS scoring methods that were not equally reliable because
          of the level of detail needed for some but not others. In addition, the Agency has
          not designated a consistent scoring method that is acceptable and reliable for
          designating a SA site. Consistent and reliable documentation of HRS scores at SA
          sites is an internal control to ensure compliance with the SAS guidance and
          approach.

          In the recent past, some PRPs have criticized EPA for wrongly designating SA
          sites because they were not believed to meet the hazard ranking criteria. If EPA
          does not define “adequate documentation” using a consistent method to support
          SAS HRS scores, it does not have control over the use of potentially less reliable
          scoring methods. Where less reliable scoring methods are used, it can lead to
          waste or inappropriate use of Superfund resources. EPA cannot address
          transparency concerns that led to the SA approach being characterized as “subject
          to abuse.” It also cannot assure PRPs that SA sites rise to the level of an NPL
          site.

Recommendations

          We recommend that the Assistant Administrator for Enforcement and Compliance
          Assurance and the Assistant Administrator for Solid Waste and Emergency
          Response collaborate to:

                  2-1    Publish a universe of SA sites that meets the SAS eligibility
                         criteria and are designated SA sites and regularly update the list as
                         the universe changes.

                  2-2    Develop specific instructions on when to use the SA designation
                         (e.g., for sites or agreements) and update the Superfund Program
                         Implementation Manual (SPIM) accordingly. The instructions
                         should include provisions that state the SAS flag should not be
                         removed even if the site is deleted, cleaned up, or proposed for the
                         NPL, so that controls over documentation of SA sites are
                         maintained.

                  2-3    Establish and direct Regions to use a consistent HRS scoring
                         method that is acceptable and reliable for designating a Superfund
                         Alternative site. At minimum, documentation on the score should
                         be verifiable.




                                            6

Agency Comments and OIG Evaluation

          The OIG made changes to the report based on the Agency’s comments where
          appropriate. Appendix E provides the full text of the Agency comments and OIG
          response.

          The Agency partially concurred with Recommendations 2-1 and 2-2. However,
          the proposed actions are not acceptable because EPA did not provide details to
          describe how and when it will implement the recommendations. Within 90 days,
          the Agency needs to provide details (as described in Appendix E) on these actions
          as well as milestones for completing corrective actions.

          The Agency disagreed with Recommendation 2-3, claiming that no actions were
          necessary since criteria in “40 CFR Part 300 Appendix A” were sufficient. We do
          not believe the Agency’s position addresses the causes underlying the OIG
          recommendation because EPA has not implemented controls to prevent the use of
          potentially less reliable scoring methods by the regions. We consider the
          recommendation unresolved. The OIG found that regions were using various,
          sometimes unreliable, methods for generating HRS scores, at a time when “40
          CFR Part 300 Appendix A” criteria existed. Therefore, past EPA experience
          indicates that simple awareness of the CFR criteria is not sufficient to ensure that
          regions use a reliable, acceptable, and verifiable HRS scoring method.

          During its internal evaluation, OECA removed the SA designation from 13 sites
          that did not score 28.5 or above and determined this removal was due to
          inconsistent regional scoring methods. (Office of Site Remediation Enforcement
          (OSRE) staff told us some of the methods regions used are more reliable than
          others.) In response to our discussion draft, Agency staff stated that “The score
          (while not necessarily exact prior to a full package) is verifiable with the basic
          information that is fed into Quickscore, the pre-scoring tool supported by EPA
          OSRTI [Office of Superfund Remediation and Technology Innovation] and
          primarily used by EPA Regions today.” Furthermore, EPA promotes the use of
          Quickscore for use by PRPs in response to our draft report Recommendation 4-1.
          Based on the Agency’s comments, we revised the recommendation. Within 90
          days, EPA will need to consider the revised Recommendation 2-3, provide details
          (as described in Appendix E) on its actions to implement the recommendation,
          and provide milestones for completing the actions.




                                           7

                                     Chapter 3
         EPA Is Inconsistent in Measuring Results
           OSWER and OECA inconsistently measure results for SA sites. OSWER tracks
           and reports only one of six cleanup activities or Government Performance and
           Results Act (GPRA) measures at SA sites that it routinely reports for NPL sites.
           In contrast, OECA tracks and reports all of the enforcement-related GPRA
           measures at SA sites that it normally does at NPL sites. EPA’s current SAS
           guidance states that practices followed at SA sites should generally be the same as
           those followed at NPL sites. Because OSWER decided not to track all cleanup
           measures at SA sites, it is missing opportunities to demonstrate, or determine,
           how SAS accomplishments contribute to Superfund strategic goals.

The Office of Solid Waste and Emergency Response (OSWER) Does Not Track
and Report All Cleanup Measures at SA Sites

           OSWER only measures site assessments and final assessment decisions at SA
           sites. OECA tracks and reports all relevant GPRA enforcement measures at SA
           sites. Table 3-1 shows the GPRA measures that OSWER and OECA track and
           report for SA and NPL sites (see Appendix C for details on GPRA and Superfund
           performance measures). OSWER is contemplating measuring construction
           completions at SA sites.

           Table 3-1: GPRA Measures Tracked and Reported for NPL and SA Sites in FY 2007

                   Cleanup Measures (OSWER)                   NPL Sites      SA Sites
             Site assessments and final site
             assessment decisions                                 9              9
             Final remedy selection                               9
             Sitewide Ready-for-Reuse (new in FY
             2007)                                                9
             Construction complete                                9
             Human exposure under control                         9
             Contaminated groundwater migration
             under control                                        9
                  Enforcement Measures (OECA)                 NPL Sites      SA Sites
             Reach settlement or take enforcement
             action at 95% of sites with viable, liable           9              9
             PRPs
             Statute of limitations cases with
             unaddressed past total costs ≥ $200,000              9              9

           Source: EPA Office of Inspector General (OIG) analysis of EPA data.




                                                 8
                 In FY 2004, the SPIM noted the importance of tracking results at SA sites.6 That
                 year, EPA added information to the SPIM about SA sites to ensure “accurate
                 reporting of work and appropriate credit to EPA regions for cleanup of non-NPL
                 sites [such as SA sites] as well as NPL sites.” EPA’s 120-Day Study also
                 encouraged program offices to track and report all cleanup progress at SA sites so
                 that all program accomplishments can be communicated to the public and
                 Congress.

                 We asked the Director of the Superfund Assessment and Remediation Division
                 why OSWER was not measuring all Superfund results at SA sites. The Director
                 referred us to a Superfund Team Leader who provided these reasons:

                      1)	   Concerns about efficiency in tracking measures at SA sites;
                      2)	   NACEPT concerns [NACEPT recommended EPA not integrate
                            performance data from SA sites when reporting progress at NPL sites7];
                            and
                      3)	   Guidance from OMB which indicated fewer performance measures are
                            better.

                 In response to these concerns, we noted the following:

                      1)	   EPA’s SAS evaluation leader does not expect the SA approach to
                            become a big program. Therefore, tracking performance measures for a
                            small number of sites would not be burdensome. In addition, OSWER
                            does not have to implement new information systems to track
                            performance at SA sites. It already has the ability to track and report
                            Superfund performance measures through CERCLIS.
                      2)	   EPA could generate separate performance reports for NPL and SA sites.
                      3)	   Measuring the performance and outcomes at SA sites does not involve
                            more measures. Rather, it involves measuring the same activities that
                            EPA currently measures for NPL sites.

                 According to the OECA evaluation lead, the former Assistant Administrator for
                 OSWER committed to tracking construction completions at SA sites. However,
                 EPA has not updated the SPIM to indicate that regions should track and report
                 construction completion at SA sites. As of October 16, 2006, no SA sites had
                 achieved construction completion. By measuring and tracking all standard
                 cleanup measures at SA sites, OSWER can demonstrate the outcomes of
                 Superfund investments and provide an incentive to regions by more thoroughly
                 accounting for their performance.



6
  The SPIM provides guidance and direction on how to achieve Superfund program goals and targets.
7
  The Superfund Team Leader told us that NACEPT recommended EPA focus on NPL sites, when in fact NACEPT
stated that EPA should continue to expand its tracking system to other sites receiving Superfund dollars, and used
SA sites as an example.


                                                        9

Recommendations

          We recommend that the Assistant Administrator for Solid Waste and Emergency
          Response:

                  3-1   Track and report all Superfund GPRA measures at SA sites. This
                        includes construction completions, final remedy selection, human
                        exposure under control, migration of contaminated groundwater
                        under control, and sitewide ready-for-reuse. Report GPRA
                        measures at SA sites separately from GPRA measures at NPL
                        sites.

                  3-2   Revise applicable guidance, manuals, or directives to reflect that
                        these performance measures will be tracked and reported for SA
                        sites.

Agency Comments and OIG Evaluation

          The OIG made changes to the report based on the Agency’s comments where
          appropriate. Appendix E provides the full text of the Agency comments and OIG
          response.

          The Agency generally concurred with Recommendation 3-1 and offered an
          alternative for Recommendation 3-2, which we accept. However, EPA did not
          provide sufficient information to describe how and when it would implement the
          recommendations. Within 90 days, the Agency will need to provide details (as
          described in Appendix E) on these actions as well as milestones for completing
          the actions.




                                         10 

                                    Chapter 4
       EPA Has Not Addressed Inconsistencies in
            Implementing the SA Approach
           EPA has not addressed the regional inconsistencies in implementing the SA
           approach raised in the Agency’s 120-Day Study. The study reported that regions
           did not provide PRPs with consistent SAS criteria and transparent site assessment
           information. These problems contributed to perceptions and allegations from
           120-Day Study interviewees that the SA approach is “subject to abuse.”
           Continued inaction is likely to exacerbate concerns about EPA’s fairness and
           authority in implementing the SA approach. Some PRPs question EPA’s
           authority to request provisions in SAS. PRPs, and other stakeholders, may
           continue to question the SA approach until EPA implements key management
           controls to improve transparency.

EPA Has Not Taken Action on Sharing Site Assessment and HRS Information

           OIG analysis shows that EPA’s actions to address the 120-Day Study’s
           recommendation to share site assessment information have not been implemented
           and, at best, are in progress. However, in June 2006, EPA reported that its actions
           were complete. Table 4-1 shows the recommendation and EPA’s response.

           Table 4-1: 120-Day Study Recommendation on SA Approach and EPA’s Response

               120-Day Study Report, April 22, 2004        120-Day Study Action Plan Status, June 2006
             Recommendation 25: “OSWER should             “The revised SAS Guidance (signed 6/17/04)
             revise the Superfund Alternative Site        clarifies the criteria that SAS agreements and
             policy to ensure that criteria for being a   cleanups must meet, and encourages regions to
             Superfund Alternative Site are uniform and   discuss the SA approach with PRPs prior to the
             that the Regions provide the PRPs and        start of negotiations. The transmittal memo for the
             other interested parties with transparent    revised SAS guidance commits to improving the
             site assessment and pre-scoring              transparency of the SAS approach. We
             information. (Near term)”                    (OSRE/OSRTI) [Office of Site Remediation and
                                                          Enforcement and the Office of Superfund
                                                          Remediation and Technology Innovation] will be
                                                          working with the Regions on ways to enhance the
                                                          transparency of SAS designations. For example, a
                                                          model general notice letter was developed to send
                                                          to PRPs explaining the SA approach and the listing
                                                          approach, and inviting them to participate as a SA
                                                          site. We are also working on improving the quality
                                                          of the SAS data in CERCLIS. In addition, the
                                                          forthcoming guidance on Technical Assistance
                                                          Plans (TAPs) includes ways to ensure that affected
                                                          communities are adequately informed about SA
                                                          site designations and opportunities for technical
                                                          assistance. Status: Complete”

           Source: EPA, 120-Day Study, and June 2006 Action Plan Status.




                                                11 

                 According to EPA, it issued the 2004 guidance and the January 2005 SAS general
                 notice letter template to address Recommendation 25. However, neither of these
                 documents addresses sharing HRS score documentation and site assessment
                 information. The letter contains only one sentence about the eligibility criteria for
                 SA approach: “EPA Region X believes the site qualifies for the SA approach.”
                 In addition, the 2004 SAS guidance does not indicate how or what site assessment
                 information is to be shared with PRPs.

                 In June 2006, members of NAM and the Superfund Settlements Project (SSP)8
                 told us they were unaware of any changes that addressed the concerns about the
                 lack of transparency on SAS site assessments and HRS scores (see Appendix D
                 for more details). Specifically, two members confirmed that EPA had not
                 provided access to HRS scoring documents. Access to this information would
                 have allowed the PRP to assess site conditions, their potential liability, and
                 eligibility for SAS. Four of six SSP members did not believe their sites met the
                 eligibility criteria for listing on the NPL. In the absence of site assessment
                 information, they questioned whether their sites were appropriate for the SA
                 approach. Further, NAM recommended EPA terminate the SA approach. NAM
                 believes regions pursue site cleanups without regard to risk or a company’s
                 accountability.

                 Some PRPs also raised some concerns about implementing the SA approach
                 which they characterized as due process issues. For example, NAM members
                 stated that the financial assurance requirements in the current guidance were more
                 stringent than for PRPs cleaning up NPL sites. According to NAM members, the
                 SAS community involvement requirements are greater than the NPL process.
                 NAM members also believe the provisions not to challenge NPL listing after
                 partial cleanup and to waive any time limitations defense for Natural Resource
                 Damages (NRD) claims are due process rights they have to give up under the SA
                 approach. The Agency provided documentation that it has the authority to request
                 the SAS provisions related to NPL listing, financial assurance, community
                 involvement, and waiver of NRD claims. In addition, the Agency’s position is
                 that there is no requirement to have all of these provisions in a settlement
                 agreement and that private parties are not forced to sign agreements they find
                 unacceptable.

        Recommendations

                 We recommend that the Assistant Administrator for Enforcement and Compliance
                 Assurance and the Assistant Administrator for Solid Waste and Emergency
                 Response collaborate, as needed, to:

                         4-1	     Determine the complete list of site assessment information regions
                                  can share with PRPs during SA site negotiations.

8
 The Superfund Settlements Project is a group of companies representing various sectors of American industry
whose stated purpose is to improve the Superfund program. Some of these companies are also members of NAM.


                                                     12 

                 4-2    Revise the SAS general notice letter to include specific details
                        about how site assessment information should be shared with PRPs
                        during SA site negotiations. The revisions should include the
                        complete list of site assessment information (see recommendation
                        4-1).

Agency Comments and OIG Evaluation

          The OIG made changes to the report based on the Agency’s comments where
          appropriate. Appendix E provides the full text of the Agency comments and OIG
          response.

          The Agency partially disagreed with Recommendation 4-1 by stating that it had
          taken action to address this recommendation. We disagreed that its action met the
          intent of the recommendation to increase transparency and revised the
          recommendation based on the Agency’s response. EPA states “…Regions can
          provide PRPs with site assessment reports, such as the PA, SI, and ESI reports.”
          This response indicates that other site assessment information can be made
          available to PRPs. We consider the recommendation open and unresolved.
          Within 90 days, EPA will need to consider the revised recommendation, provide
          details (as described in Appendix E) on how it will implement the
          recommendation, and provide milestones for completing it.

          The Agency disagreed with Recommendation 4-2, but noted that it would
          partially implement it. The proposed action does not meet the intent of the
          recommendation, which we revised to be consistent with recommendation 4-1.
          We consider the recommendation open and unresolved. Within 90 days, EPA
          will need to consider the revised recommendation and provide details (as
          described in Appendix E) on its actions to implement recommendation 4-2 and
          provide milestones for completing the actions.




                                          13 

                                           Chapter 5
                 EPA Has No Communication Strategy
                        on the SA Approach
                 EPA has not developed a communication and outreach strategy to inform the
                 public about SA sites in their communities, the benefits of the SA approach, and
                 community involvement opportunities at SA sites. EPA did not develop this
                 strategy because it believed its guidance was sufficient. In contrast, an abundance
                 of communication and outreach information is available to the public on NPL
                 sites. Of the limited public information about SA sites, some is inconsistent with
                 Agency guidance or internal Agency information. The lack of a communication
                 and outreach strategy to address limitations in public information and awareness
                 of the SA approach impedes Agency transparency and public awareness. It also
                 impedes EPA’s ability to implement this cleanup process in a credible and
                 effective manner.

Public Information on the SA Approach Is Limited and Inconsistent

                 EPA does not have information on its Websites, or in its guidance document, that
                 explains how a site becomes an SA site. EPA also has not communicated the
                 benefits of this approach or opportunities for community involvement. All of this
                 information is available online for NPL sites. Furthermore, regional Websites
                 contain limited information about the SA approach that is inconsistent with
                 current guidance and internal Agency information on SA sites.

                 According to EPA staff, the Agency’s communications tool for the SA approach
                 is its guidance documents. However, the current guidance document does not
                 explain how a site becomes an SA site or the value of the SA approach. In
                 addition, the guidance does not provide site-specific details that would facilitate
                 community involvement in the cleanup process.

                 The current SAS guidance does not mention any benefits of the SA approach.
                 However, during the course of this review, OECA’s Regional Support Division
                 Director and OSWER’s Assessment and Remediation Division Director proposed
                 several benefits, including:

                     1) Cost savings: PRPs generally perform cleanup for less money than EPA.
                        Both EPA and PRPs may incur fewer or no litigation costs. EPA and the
                        PRPs can save the cost of listing the site on the NPL.
                     2) Resource efficiencies: EPA can use resources at other sites that do not
                        have PRPs to fund cleanup.
                     3) More timely cleanups: Without time taken to list the site, cleanups can
                        start sooner.9

9
  EPA did not provide any plans for documenting and communicating these benefits to the public or other
stakeholders.


                                                       14 

          Current SAS guidance also does not provide information on how to implement
          technical assistance plans for communities. The guidance calls for SAS
          agreements to include a Technical Assistance Plan (TAP) for communities.
          However, EPA has not finalized the additional guidance needed for this plan.
          TAPs are supposed to ensure the same type of community technical assistance
          opportunities at SA sites, which exist at NPL sites.

          Finally, the limited online information about SA sites is incomplete or
          inconsistent with current guidance. NPL sites have Site Progress Profiles. These
          contain information on cleanup progress, site location, contamination and
          exposure data, and progress toward meeting GPRA goals. Although Site Progress
          Profiles are publicly available online for all NPL sites, they exist for only 7 of 23
          sites that meet SAS eligibility criteria.

          Some of the regional site information does not match internal Agency
          information, or is inconsistent with guidance. For example, Region 5 has a
          Website on Superfund Alternative Sites which includes a list of SA sites and fact
          sheets for each site. However, the Region’s list of SA sites does not match
          OECA’s list. Other regions have online information that is inconsistent with
          current guidance. Specifically, Region 4 uses the terms NPL caliber and NPL
          equivalent on its Website, and Region 10 uses the term NPL equivalent. These
          are former terms and labels for SA sites and are not consistent with the current
          guidance. The other seven regional Websites have no information about SA sites
          available.

Recommendations

          We recommend that the Assistant Administrator for Enforcement and Compliance
          Assurance and the Assistant Administrator for Solid Waste and Emergency
          Response collaborate, as needed, to:

                  5-1	   Develop, and release to the public, a communication and outreach
                         strategy, to include information on how a site becomes an SA site,
                         the benefits of the SA approach, and SA site progress profiles.

                  5-2	   Direct regions to discontinue use of terms such as NPL caliber and
                         NPL equivalent to describe the status of SA sites, or the SA
                         approach.

                  5-3	   Finalize, and release to the public, the TAP guidance for SA sites.




                                           15 

Agency Comments and OIG Evaluation

          The OIG made changes to the report based on the Agency’s comments where
          appropriate. Appendix E provides the full text of the Agency comments and OIG
          response.

          The Agency concurred with Recommendations 5-1, 5-2, and 5-3. The Agency
          stated that “OSWER/OECA agrees that improvements can be made in the
          consistency and transparency of the SA approach and plans to act on the
          recommendations in Chapter 5.”

          While the Agency agreed to implement Recommendations 5-1 and 5-2, it did not
          provide details on how it would implement them and when. Within 90 days, the
          Agency needs to provide details on its planned actions (as described in
          Appendix E) and milestones for completing them. The Agency’s response to
          Recommendation 5-3 meets the intent of the recommendation, is acceptable, and
          we consider Recommendation 5-3 closed.




                                        16 

                                 Status of Recommendations and
                                   Potential Monetary Benefits
                                                                                                                                 POTENTIAL MONETARY
                                                      RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                    Planned
    Rec.    Page                                                                                                   Completion    Claimed    Agreed To
    No.      No.                            Subject                           Status1       Action Official           Date       Amount      Amount

    2-1       6     Publish a universe of SA sites that meets the SAS           O       Assistant Administrators   Unspecified
                    eligibility criteria and are designated SA sites and                  OECA and OSWER
                    regularly update the list as the universe changes.

    2-2       6     Develop specific instructions on when to use the SA         U       Assistant Administrators
                    designation (e.g., for sites or agreements) and update                OECA and OSWER
                    the Superfund Program Implementation Manual
                    (SPIM) accordingly. The instructions should include
                    provisions that state the SAS flag should not be
                    removed even if the site is deleted, cleaned up, or
                    proposed for the NPL, so that controls over
                    documentation of SA sites are maintained.

    2-3       6     Establish and direct Regions to use a consistent HRS        U       Assistant Administrators
                    scoring method that is acceptable and reliable for                    OECA and OSWER
                    designating a Superfund Alternative site. At minimum,
                    documentation should be verifiable.

    3-1      10     Track and report all Superfund GPRA measures at SA          O       Assistant Administrator    Unspecified
                    sites. This includes construction completions, final                       OSWER
                    remedy selection, human exposure under control,
                    migration of contaminated groundwater under control,
                    and sitewide ready-for-reuse. Report GPRA
                    measures at SA sites separately from GPRA
                    measures at NPL sites.

    3-2      10     Revise applicable guidance, manuals, or directives to       U       Assistant Administrator
                    reflect that these performance measures will be                            OSWER
                    tracked and reported for SA sites.

    4-1      12    Determine the complete list of site assessment               U       Assistant Administrators
                   information regions can share with PRPs during SA                      OECA and OSWER
                   site negotiations.

    4-2      13    Revise the SAS general notice letter to include specific     O       Assistant Administrators   Unspecified
                   details about how site assessment information should                   OECA and OSWER
                   be shared with PRPs during SA site negotiations. The
                   revisions should include the complete list of site
                   assessment information (see recommendation 4-1).

    5-1       15    Develop, and release to the public, a communication         O       Assistant Administrators   Unspecified
                    and outreach strategy, to include information on how a                OECA and OSWER
                    site becomes an SA site, the benefits of the SA
                    approach, and SA site progress profiles.

    5-2      15     Direct regions to discontinue use of terms such as          O       Assistant Administrators   Unspecified
                    NPL caliber and NPL equivalent to describe the status                 OECA and OSWER
                    of SA sites, or the SA approach.

    5-3      15     Finalize, and release to the public, the TAP guidance       O       Assistant Administrators    9/30/07
                    for SA sites.                                                         OECA and OSWER

1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                 17 

                                                                                   Appendix A


                     Hazard Ranking System (HRS)
The HRS is the scoring system used by EPA’s Superfund program to assess the relative potential
threat associated with the actual or potential releases of hazardous substances. The HRS is the
primary screening tool for determining whether a site is to be included on the NPL. The HRS
score for a site is determined by evaluating four pathways of potential human exposure:

   •   Ground water migration (drinking water);
   •   Surface water migration (drinking water, human food chain, and environmental);
   •   Soil exposure (resident population and nearby population); and
   •   Air migration (population, sensitive environments).

Any site scoring 28.5 or above is eligible for the NPL. All information used in scoring must be
recorded in the HRS documentation record. The documentation record is the central element of
the HRS package, and contains all of the information upon which a site score is based. For sites
proposed to the NPL, the documentation record and references are available for public review.
All HRS scoring packages developed by States and EPA contractors are subject to quality
control review by EPA regional site assessment staff. After regional quality control is complete,
packages undergo an in-depth quality assurance review at EPA Headquarters. EPA
Headquarters does not require HRS scoring packages for SA sites, unless the site is proposed to
the NPL.




                                               18 

                                                                                    Appendix B


                 Details on Scope and Methodology
In answering our questions, we reviewed EPA’s 2002 and 2004 SAS guidance, EPA’s Superfund
Program Implementation Manual (SPIM) for FY 2002 through FY 2007, EPA’s 120-Day Study,
and the NACEPT and OMB reports. We supplemented our review of documents by
interviewing Superfund program managers and staff. Additional and specific steps we took to
review internal controls and answer each question follow.

To determine how SA sites contribute to EPA’s strategic goals, we reviewed the requirements of
the Government Performance and Results Act (GPRA) of 1993, EPA’s strategic plans, and
annual performance plans and reports (see Appendix C).

To determine how EPA has communicated the SA approach to the public, participants and other
stakeholders, we reviewed EPA’s methods for communicating how the SAS process works and
how cleanups at SA sites are progressing. We examined EPA’s Superfund Websites, including
the Superfund Community Involvement Toolkit, regional Websites, and Site Progress Profiles.
We compared how EPA communicates the SA approach to its public communications and
information on the NPL process.

We obtained interviews and testimonial evidence from OECA and OSWER staff and
representatives of NAM, Superfund Settlements Project (SSP) and other PRPs that had
experience with the SA approach. Because feedback from NACEPT, NAM, and EPA’s 120-Day
Study was generally negative, we asked EPA if it was aware of any PRPs that had positive
experiences. EPA provided us with PRP contacts it thought viewed the SA approach positively.
We sent a short questionnaire to seven PRPs to assess their general views and experiences with
the SA approach (see Appendix D). We selected the seven PRPs because they were associated
with currently designated SA sites; EPA had not contacted them during the course of their
internal evaluation; and they were not members of SSP, who had already provided us feedback.

To determine what the 120-Day Study authors found inconsistent about the SA approach, we
queried the study leader (the Deputy Assistant Director for EPA’s Office of Air and Radiation).
Because the study leader did not have several of the records needed, where possible, we went
directly to the sources of the study’s findings, including the Director and staff of the Emergency
and Remedial Response Division in Region 2, and Director and staff of the Superfund Division
in Region 9 (to determine why these regions do not use the SA approach) and representatives of
NAM and SSP (to obtain information about EPA’s practices in sharing site assessment and HRS
information).

To determine whether EPA has reliable management information on the SA approach, we
considered and reviewed information and documents gathered in answering our previous
questions on how EPA communicates and determines the benefits of the SA approach. We
reviewed OECA’s analysis and progress in identifying a universe of SA sites.



                                                19 

                                                                                     Appendix C


       The Government Performance and Results Act
       (GPRA) and Superfund Performance Measures
GPRA requires Federal agencies to prepare performance plans with annual performance goals
and measures to help move them toward managing for results. Performance measurement is the
monitoring and reporting of program accomplishments, particularly progress toward pre
established goals. Performance measures address the type of program activities conducted, the
direct products and services delivered by a program (outputs), and the results of those products
and services (outcomes). Effective performance measurement enables an agency to establish
baselines; identify and prioritize problems; and evaluate, manage, and improve programs. To
meet GPRA requirements, EPA’s strategic plan outlines the Agency’s five long-term goals and
guides in establishing the annual goals that EPA must meet along the way. To fulfill its five
strategic goals, the plan includes a series of more specific objectives and sub-objectives. Each of
the objectives has performance measures designed to demonstrate progress in achieving the
objective and, eventually, the strategic goal.

In EPA’s current 2006—2011 Strategic Plan, the Superfund program is under Goal 3, Land
Preservation and Restoration. Under Goal 3, “By 2011, [EPA will] control the risks to human
health and the environment by mitigating the impact of accidental or intentional releases by
cleaning up and restoring contaminated sites or properties to appropriate levels.” Specific
Superfund activities are under Objective 3.2: Restore Land. This objective includes three sub-
objectives: (1) prepare for and respond to releases, (2) clean up and reuse land, and (3) maximize
PRP participation at Superfund sites. In FY 2007, the Superfund cleanup program is measuring
its progress on these sub-objectives through six strategic targets:

   •	 Performing site assessments and making final assessment decisions;
   •	 Selecting final remedies designed to clean up contamination to risk levels that protect
      human health and the environment and are appropriate for anticipated future land use;
   •	 Completing construction of selected remedies;
   •	 Protecting the public from the health effects of exposure to contamination;
   •	 Controlling the migration of contaminated groundwater; and
   •	 Achieving the designation “Sitewide Ready for Reuse” at construction complete NPL
      sites.

In FY 2007, the Superfund enforcement program is measuring its progress by applying the
Enforcement First strategy and by recovering costs. Specifically, EPA will:

   •	 Reach a settlement or take an enforcement action before the start of a remedial action at
      95 percent of Superfund sites having viable, liable responsible parties; and
   •	 Address all statute of limitations cases for Superfund sites with unaddressed total past
      costs equal to or greater than $200,000.



                                                20 

                                                                                 Appendix D


        Additional Perspectives on the SA Approach
During our evaluation, we met with members of the National Association of Manufacturers
(NAM) and the Superfund Settlements Project (SSP) and surveyed seven other PRPs to gather
additional perspectives on the SA approach. Most of the feedback from NAM and SSP was
negative. Therefore, we asked EPA to provide us with PRPs it thought viewed the SA approach
positively. We surveyed seven of these PRPs. The following is a summary of information
gathered from the seven PRPs we surveyed, and of information provided by NAM and SSP
members.

OIG Survey of PRPs

We sent a short questionnaire to seven PRPs to obtain their general views and experiences with
the SA approach. Six of the seven PRPs provided responses to our questionnaire. Four of six
PRPs stated that they had generally positive overall experiences with the SA approach. Some of
the key reasons that PRPs had positive experiences were:

   •	 Overhead and oversights costs were reduced because the SA approach was streamlined.
   •	 EPA staff were professional, reasonable, knowledgeable, and flexible.
   •	 The region has more decisionmaking authority during the SA approach than during the
      NPL process.

However, some PRPs made suggestions regarding the SA approach:

   •	 Regions need maximum flexibility to facilitate timely remediation and the SA approach
      needs more streamlining.
   •	 EPA needs to reduce document review time and oversight.
   •	 EPA needs to reduce negotiation time.
   •	 EPA needs to be more cooperative when deciding deadlines and goals with PRPs.

NAM and SSP Perspectives

We interviewed NAM members after we became aware of their recommendation to OMB to
terminate the SA approach. NAM believed the SAS guidance encourages regional offices to
evade the requirements of the NPL and to clean up sites without regard to risk or PRP
accountability for the site. Members of SSP were also present during our interviews with NAM;
some SSP members are NAM members. We posed followup questions to SSP about concerns
we heard during our interviews, to determine whether EPA had responded to their concerns.
Below we summarize the key concerns.

   •	 Some PRPs criticized and challenged EPA for not sharing site assessment or HRS 

      scoring information with participants; and 




                                              21 

   •	 Some PRPs believed due process rights are compromised because SA site cleanups can
      involve different requirements, and in some cases more stringent requirements, than
      cleanups conducted under the NPL process.

As discussed in Chapter 4, we did not find evidence that EPA has directly and effectively
addressed these concerns. Furthermore, a 2004 Supreme Court ruling (Cooper Industries, Inc. v.
Aviall Services Inc.) has left some PRPs questioning their ability to seek cost recovery from other
liable parties for voluntarily conducted cleanups, such as those EPA conducts under its SA
approach.




                                                22 

                                                                                               Appendix E


                   Agency Comments on Draft Report
                         and OIG Evaluation




MEMORANDUM 


SUBJECT:         Comments on the Office of Inspector General’s March 19, 2007 Draft Evaluation
                 Report, “EPA Needs to Take More Action in Implementing Alternative
                 Approaches to Superfund Cleanups”

FROM:            Granta Y. Nakayama, Assistant Administrator
                 Office of Enforcement Compliance Assurance (OECA)

                 Susan P. Bodine, Assistant Administrator
                 Office of Solid Waste and Emergency Response (OSWER)

TO:         Carolyn Copper, Director for Program Evaluation
            Hazardous Waste Issues
            Office of Inspector General (OIG)
_______________________________________________________________________

       On March 19, 2007, OECA and OSWER received OIG’s draft evaluation report, “EPA
Needs to Take More Action in Implementing Alternative Approaches to Superfund Cleanups.”
As you know, OECA’s Office of Site Remediation Enforcement (OSRE) and OSWER’s Office
of Superfund Remediation and Technology Innovation (OSRTI) jointly developed the relevant
guidance documents10 on the Superfund Alternative approach and have overseen its
implementation.

       OSWER/OECA offers three categories of comments on the draft report: (1) general
comments and major concerns (below); (2) specific comments to report recommendations (see
Attachment 1, with a Supplemental Response on Recommendation 4-3); and (3) detailed
comments on the draft report that are not specifically tied to particular draft recommendations
(see Attachment 2).

10
   June 24, 2002, “Response Selection and Settlement Approach for Superfund Alternative Sites” (SAS Guidance);
June 17, 2004, “Revised Response Selection and Settlement Approach for Superfund Alternative Sites” (Revised
SAS Guidance).


                                                      23 

GENERAL COMMENTS

  •	 We concur with some of OIG’s proposed recommendations and, as specified in the
     attached chart, have initiated or planned corrective actions as part of our own evaluation
     of the SA approach.

  •	 Notably, OSWER/OECA agrees that continued integration of accurate SA approach data
     and outcomes into current Superfund systems is appropriate. OSWER/OECA will weigh
     the pros and cons and the difficulty/resource intensiveness of tracking all GPRA
     measures at sites following the SA approach (Recommendations 2-1, 2-2).

  •	 OSWER/OECA also agrees that improvements can be made in the consistency and
     transparency of the SA approach and plans to act on the recommendations in Chapter 5.

MAJOR CONCERNS

  •	 The draft report states that “OECA is the lead on the SAS approach, and [OSWER]
     provides support,” and, repeatedly through the report, suggests that OECA is the lead on
     the SA approach. As stated above, OSWER and OECA co-authored the relevant
     guidance documents and share responsibilities for implementing the SA approach. We
     ask that this partnership be reflected accurately in the OIG evaluation report.

     OIG response:
     Prior to receiving the Agency’s April 16, 2007 response, OSRE staff told us that, “OSRE is
     considered the lead on the SAS initiative with support from OSRTI.” However, we have
     revised the final report based on the official, and current Agency view that, OECA and
     OSWER share duties in implementing the SA approach.


  •	 With Recommendation 4-3, OIG recommends that the SAS guidance and general notice
     letter be revised to include language from an EPA legal opinion stating EPA’s legal
     authority to request certain provisions in SA agreements and that no due process
     violations are associated with these provisions. OSWER/OECA disagrees with OIG’s
     recommendation. OECA developed the model language and documents (including the
     four SA provisions) with the advice of the Office of General Counsel (OGC) and in
     consultation with the U.S. Department of Justice (DOJ). OGC has reviewed OIG’s draft
     report, and continues to believe that EPA has the legal authority to enter into agreements
     that include the SA provisions and that negotiating and entering such agreements does
     not deprive potentially responsible parties (PRPs) of due process. In these circumstances,
     we do not think it is appropriate to suggest that there are doubts about legal authority or
     due process by amending the guidance to specifically deny that EPA lacks legal authority
     or has denied PRPs due process.
       OIG response:
       We removed this recommendation from the final report because the Agency provided
       documentation on its authority to include the provisions.



                                                24 

       If you have questions about OSWER/OECA’s response, please contact Ken Patterson in
OSRE or Elizabeth Southerland in OSRTI. We look forward to continuing the discussion of
your draft report with you.

Attachments


cc:

Barry Breen, OSWER
Lynn Buhl, OECA
Mary Kay Lynch, OGC
Earl Salo, OGC
Susan Bromm, OSRE
James Woolford, OSRTI




                                            25 

                                              ATTACHMENT 1


       EPA/OIG Evaluation Draft Report: EPA Needs to Take More Action in Implementing 

                         Alternative Approaches to Superfund Cleanups (3/19/07) 



Rec                                      OSWER/OECA Response to                           OIG Response
      EPA/OIG Recommendation
  #                                             Recommendation
2-1   Finalize and release a universe   OSWER/OECA agrees with this            Agency partially agrees but does not
      of SA sites that meets the SAS    recommendation, with a                 commit to implementation; no
      eligibility criteria.             clarification. The SA universe is      milestone dates provided.
                                        dynamic and any data or list of
                                        sites following the SA approach        The OIG is aware that the SA universe
                                        is just a snapshot.                    is “dynamic.” However, EPA has not
                                        OSWER/OECA’s own internal              committed to releasing site-specific
                                        evaluation of the SA approach          information for each SA site (beyond a
                                        closely examined available data        number total) nor provided milestone
                                        on sites flagged in CERCLIS as         dates. That is the intent of the
                                        SA. Our evaluation report – now        recommendation. We have revised the
                                        in the final stages of review – will   final recommendation accordingly.
                                        identify the number of sites
                                        actively using the SA approach         For the OIG to close this
                                        (i.e., non-NPL sites with an           recommendation, in its response to the
                                        agreement for RI/FS, RD, RA, or        final report, EPA will need to:
                                        NTCRA finalized after the June         (1) Consider the revised
                                        2002 SAS Guidance was issued).         recommendation.
                                        Sites where the SA approach is         (2) Describe completed or planned
                                        being used may also have other         actions to release site-specific
                                        approaches being used                  information on all sites that meet the SA
                                        concurrently. OSWER/OECA               criteria, at that time. The site-specific
                                        will consider including this           information should include, as
                                        information in end-of-year             applicable, the same categories and
                                        reports.                               fields of information contained in
                                                                               publicly accessible Superfund Site
                                                                               Progress Profiles.
                                                                               (3) Provide milestone dates for
                                                                               completion.

      Develop and issue guidance for    OSWER/OECA agrees in part,             Agency partially agrees and partially
2-2   when to flag SA sites in          and disagrees in part, with this       disagrees; no milestone dates provided.
      CERCLIS. For final SA sites,      recommendation.
      the guidance should include       OSWER/OECA disagrees with              The changes made to the SPIM for FY
      provisions that state the SAS     OIG’s implicit suggestion that         08/09, which is not effective until
      flag should not be removed        there is no current guidance for       October 1, 2007, do not address the
      even if the site is deleted,      when to flag SA sites in               timing of the SA designation. We
      cleaned up, or proposed for the   CERCLIS. The Superfund                 revised our final recommendation to
      NPL, so that controls over        Program Implementation Manual          ensure that the Agency updates the


                                                        26 

Rec                                       OSWER/OECA Response to                            OIG Response
      EPA/OIG Recommendation
 #                                              Recommendation
      documentation of SAS are           (SPIM) currently provides              SPIM to address the timing of the SA
      maintained.                        guidance for when to flag in           designation.
                                         CERCLIS sites using the SA
                                         approach. As appropriate,              EPA indicated its upcoming evaluation
                                         OSWER/OECA will update the             report will recommend flagging specific
                                         SPIM when our internal SA              SA agreements and we revised the
                                         evaluation is finalized. (For          report to reflect this. We revised the
                                         example, our evaluation report         final report to reflect that EPA’s
                                         will recommend flagging specific       guidance on SA sites does not include
                                         SA agreements.)                        specific information on when to
                                                                                designate a site or agreement as SA.
                                         OSWER/OECA agrees with OIG
                                         that once the SA approach is used      For the OIG to close this
                                         at a site (that is, EPA has entered    recommendation, in its response to the
                                         an enforceable SA agreement            final report, EPA will need to:
                                         with a potentially responsible         (1) Consider the revised
                                         party (PRP)), the SA flag (or an       recommendation.
                                         equivalent indicator) attached to      (2) Describe completed or planned
                                         that agreement should remain           actions to define the point in time and
                                         even if the site ultimately is         the criteria that need to be met for the
                                         cleaned up under an approach           SAS flag to be inserted in EPA’s
                                         other than SA (e.g., the site is       Superfund Information System, i.e.,
                                         later listed on the NPL).              when an agreement consistent with SAS
                                                                                guidance is signed.
                                                                                (3) Provide milestone dates for
                                                                                completion.

2-3   Identify and communicate to        OSWER/OECA disagrees with              Agency disagrees and will not
      the regions which of the HRS       this recommendation because we         implement.
      scoring methods are acceptable     have already accomplished this.
      and reliable for designating a     The Regions are responsible for        EPA has not implemented controls to
      Superfund Alternative site, e.g.   ensuring the score is greater than     prevent the use of potentially less
      Quickscore. At minimum, the        or equal to 28.5 for a site being      reliable scoring methods by the regions.
      documentation should be            considered for the SA approach.        During its internal evaluation, OECA
      verifiable.                        OSWER has queried the Regions          removed the SA designation from 13
                                         about how they score sites when        sites that did not score 28.5 or above
                                         deciding to use the SA approach        and determined the removal was due to
                                         at a particular site and how they      inconsistent regional scoring methods.
                                         document the scoring process for       (OSRE staff told us some of the
                                         future references and verification.    methods regions used are more reliable
                                         The Regions use the same scoring       than others.) According to the
                                         process to score sites using the       Agency’s guidance documents, these
                                         SA approach as they use to             sites were to be “NPL equivalent” or
                                         prepare an HRS package for             were to score 28.5.
                                         listing a site on the NPL – the
                                         HRS scoring process (and tools         In response to our discussion draft,
                                         that facilitate this process). These   Agency staff stated that “The score
                                         requirements are described in 40       (while not necessarily exact prior to a



                                                         27 

Rec                                      OSWER/OECA Response to                          OIG Response
      EPA/OIG Recommendation
 #                                             Recommendation
                                        CFR Part 300 Appendix A. In          full package) is verifiable with the basic
                                        addition, 40 CFR Part 300            information that is fed into Quickscore,
                                        Appendix A provides a set of         the pre-scoring tool supported by EPA
                                        score sheets to assist in            OSRTI and primarily used by EPA
                                        appropriate site scoring.            regions today.” Furthermore, EPA
                                                                             promotes the use of Quickscore for use
                                                                             by PRPs in response to recommendation
                                                                             4-1. We revised the recommendation to
                                                                             read “Establish and direct regions to use
                                                                             a consistent HRS scoring method that is
                                                                             acceptable and reliable for designating a
                                                                             Superfund Alternative site. At
                                                                             minimum, documentation on the score
                                                                             should be verifiable.”

                                                                             For the OIG to close this
                                                                             recommendation, in its response to the
                                                                             final report, EPA will need to:
                                                                             (1) Consider the revised
                                                                             recommendation.
                                                                             (2) Describe completed or planned
                                                                             actions to specify a consistent scoring
                                                                             method with verifiable documentation
                                                                             that will result in regional HRS scores
                                                                             that are acceptable and reliable for
                                                                             designating a SA site. The method
                                                                             should be the same as that which can be
                                                                             used by PRPs to verify HRS scores.
                                                                             (3) Provide milestone dates for
                                                                             completion.

3-1   Track and report all Superfund    OSWER/OECA generally agrees          Agency generally agrees but does not
      GPRA measures at SA sites.        with this recommendation, with       commit to implementation; no
      This includes construction        certain clarifications. Currently,   milestone dates provided.
      completions, final remedy         the only Superfund GPRA
      selection, human exposure         measure that includes sites with     The Agency is incorrect that “final
      under control, and site-wide      SA agreements is the measure for     remedy selection is no longer a GPRA
      ready-for-reuse. Report GPRA      Final Assessment Decisions           measure.” The SPIM for FY 06/07
      measures at SA sites separately   (FADs). (Note that “final remedy     (dated November 6, 2006, Appendix G,
      from GPRA measures at NPL         selection” is no longer a GPRA       page G-2) states:
      sites.                            measure.) The current GPRA
                                        measures that do not include SA      “In FY 2007, the Superfund Remedial
                                        sites are “Human Health Under        Program will measure its progress in
                                        Control,” “Ground Water              achieving environmental results through
                                        Migration Under Control,”            six key strategic targets. These six
                                        “Sitewide Ready for Anticipated      strategic targets include: (1) performing
                                        Use,” and “Construction              site assessments and making final
                                        Completions.” On an operable         assessment decisions, (2) selecting final



                                                        28 

Rec                                        OSWER/OECA Response to                         OIG Response
      EPA/OIG Recommendation
 #                                                Recommendation
                                          unit (OU) basis, information on      remedies designed to clean up
                                          SA sites is gathered as part of a    contamination to risk levels that are
                                          new, larger “Ready for               protective of human health and the
                                          Anticipated Use (RAU)” measure       environment and appropriate for
                                          that is not a GPRA measure.          reasonably anticipated future land use,
                                                                               (3) completing construction of the
                                          OSWER will examine the pros          selected remedies, (4) protecting the
                                          and cons and the                     public from the health effects of
                                          difficulty/resource intensiveness    exposure to contamination, (5)
                                          of tracking SA sites under           controlling the migration of
                                          additional GPRA measures. Such       contaminated groundwater, and (6)
                                          tracking may become easier once      achieving the designation “Sitewide
                                          OSWER/OECA issues its                Ready for Reuse” at construction
                                          evaluation report and clarifies      complete NPL sites. Each strategic
                                          expectations for flagging SA         target represents an important milestone
                                          agreements in CERCLIS.               in achieving risk reduction; no one
                                          In the meantime, OECA will           measure can itself adequately capture
                                          continue tracking and reporting      the total environmental benefits derived
                                          GPRA enforcement measures at         from the Superfund program. Strategic
                                          sites using the SA approach, and     targets (1) and (3), above, have been in
                                          OSWER/OECA also can track            place for several years. Strategic target
                                          and report GPRA measures at          (2) was implemented for the first time in
                                          sites with SA agreements using       FY 2004 and will be phased out
                                          an ad-hoc, end-of-the-year report.   beginning in FY 2008. Strategic target
                                                                               (6) is new for FY 2007.” [emphasis
                                                                               added]

                                                                               The SPIM can be found at
                                                                               http://www.epa.gov/superfund/action/pr
                                                                               ocess/spim06.htm .

                                                                               In its response, EPA has not committed
                                                                               to tracking and reporting all Superfund
                                                                               GPRA measures at SA sites. For OIG
                                                                               to close this recommendation, in its
                                                                               response to the final report, EPA will
                                                                               need to (1) Reconsider the
                                                                               recommendation and (2) Provide
                                                                               specific planned actions and milestone
                                                                               dates for completion.

3-2   Revise applicable guidance,         OSWER/OECA disagrees with            Agency disagrees but offers to study
      manuals, or directives to reflect   this recommendation but suggests     alternatives with no commitment to
      that these performance              an alternate action. As              implement; no milestone dates
      measures will be tracked and        appropriate, OSWER/OECA will         provided.
      reported for SA sites.              consider the need to revise
                                          applicable guidance, manuals, or     When EPA implements GPRA
                                          directives once our own SA           measures for SA sites (i.e., OIG
                                          evaluation is complete. The          recommendation 3-1), it will have to


                                                         29 

Rec                                     OSWER/OECA Response to                          OIG Response
      EPA/OIG Recommendation
 #                                            Recommendation
                                       Superfund Program                     update some Agency guidance and
                                       Implementation Manual (SPIM)          manuals to reflect new tracking
                                       currently provides guidance for       measures. Therefore, for the OIG to
                                       when to flag in CERCLIS sites         close this recommendation, in its
                                       using the SA approach. As             response to the final report, EPA will
                                       appropriate, OSWER/OECA will          need to (1) Reconsider the
                                       update the SPIM when our              recommendation and (2) Provide
                                       internal SA evaluation is             specific planned actions and milestone
                                       finalized. At this time,              dates for completion.
                                       OSWER/OECA does not see a
                                       need to update other documents.

                                       OSWER/OECA also will
                                       consider the most appropriate
                                       way to educate Regions on the
                                       necessary data input for sites with
                                       SA agreements so that these sites
                                       can be tracked in the ad hoc, end-
                                       of-year report described in our
                                       response to draft
                                       Recommendation 3-1.

4-1   Determine what site assessment   OSWER/OECA disagrees with             Agency partially disagrees,
      and SAS HRS scores regions       this recommendation because the       recommendation revised.
      can share with PRPs during SA    end goal of the recommendation
      site negotiations.               has been accomplished. The            We recognize EPA’s policy that HRS
                                       Regions can, and do provide           scores are pre-decisional and not
                                       appropriate site information to       releasable. However, EPA states
                                       PRPs.                                 “…Regions can provide PRPs with site
                                                                             assessment reports, such as the PA, SI,
                                       At sites proposed to the NPL, but     and ESI reports.” This response
                                       currently using the SA approach,      indicates that other site assessment
                                       EPA Regions provide HRS               information can be made available to
                                       scores, and PRPs can obtain HRS       PRPs. We have revised the
                                       documentation from the EPA            recommendation based on this response.
                                       docket.
                                                                             For the OIG to close this
                                       Prior to proposing a site to the      recommendation, in its response to the
                                       NPL, HRS scores are pre-              final report, EPA will need to (1)
                                       decisional and, therefore,            Consider the revised recommendation
                                       consistent with EPA policy, not       and (2) Provide specific planned actions
                                       releasable. Therefore, at sites       and milestone dates for completion.
                                       using the SA approach that have
                                       not been proposed to the NPL,
                                       Regions can provide PRPs with
                                       site assessment reports, such as
                                       the PA, SI, and ESI reports. Data
                                       from these reports can be input



                                                       30 

Rec                                        OSWER/OECA Response to                           OIG Response
      EPA/OIG Recommendation
 #                                               Recommendation
                                          into “Quick Score” (developed by
                                          EPA and available on the
                                          internet) to calculate a
                                          preliminary HRS score.

4-2   Revise the SAS guidance and         OSWER/OECA generally agrees            Agency partially agrees to implement
      SAS general notice letter, as       with this recommendation.              recommendation; no milestone dates
      appropriate, to include specific    OSWER/OECA is committed to             provided.
      details about how site              developing ways to improve the
      assessment information should       transparency of the SA approach        EPA has agreed to implement the
      be shared with PRPs during SA       and will revise the sample general     recommendation by revising the sample
      site negotiations.                  notice letter to include more          general notice letter. Because the
                                          specific information about site        sample general notice letter is a
                                          assessment information.                companion to the current SAS
                                                                                 guidance, we removed the
                                          OSWER/OECA’s forthcoming               recommendation to revise the SAS
                                          evaluation report will clarify that,   guidance. In order to increase
                                          at sites using the SA approach,        transparency of the SA approach, we
                                          Regions can provide PRPs with          also revised the recommendation to
                                          site assessment reports, such as       require that the general notice letter
                                          the PA, SI, and ESI reports. (As       include references to the complete list
                                          discussed above in reference to        of site assessment information PRPs can
                                          Recommendation 4-1, a PRP can          have.
                                          calculate the HRS score for a site
                                          using data from these reports.)        For the OIG to close this
                                          Moreover, OSWER/OECA                   recommendation, in its response to the
                                          intends to continue educating          final report, EPA will need to provide
                                          EPA Regions about                      specific planned actions and milestone
                                          implementation of the SA               dates for completion.
                                          approach, including appropriate
                                          communications with PRPs.

4-3   Revise the SAS guidance and         OSWER/OECA disagrees with              See response below.
      the SAS special notice letter, as   this recommendation. See
      appropriate, to include language    Supplemental Response.
      from an EPA legal opinion that
      states EPA has the authority to
      include each of the four
      provisions (community
      involvement, financial
      assurance, NRD claims, and
      NPL listing) in SAS
      agreements. The opinion
      should include a statement that
      no due process violations are
      associated with these
      provisions.




                                                           31 

Rec                                       OSWER/OECA Response to                           OIG Response
      EPA/OIG Recommendation
  #                                             Recommendation
5-1   Develop, and release to the        OSWER/OECA generally agrees            Agency agrees, but does not commit to
      public, a communication and        with this recommendation.              implement; no milestone dates
      outreach strategy, to include      OSWER/OECA is committed to             provided.
      information on how a site          improving the transparency of the
      becomes an SA site, the            SA approach and is already             EPA did not commit to implementing
      benefits of the SAS approach,      developing communication tools         the recommendation. For the OIG to
      and SA site progress profiles.     to share such information with         close this recommendation, in its
                                         stakeholders. We will consider         response to the final report, EPA will
                                         the need to develop a                  need to reconsider the recommendation,
                                         communication and outreach             which includes agreement to do the
                                         strategy, or other public education    following:
                                         documents or methods, specific to      (1) Preparing and releasing to the
                                         the SA approach.                       public, SA site progress profiles.
                                                                                (2) A public explanation of the benefits
                                                                                of the SA approach.
                                                                                (3) Information on how a site becomes
                                                                                an SA site.
                                                                                (4) Provide milestone dates for
                                                                                completion.

5-2   Direct regions to discontinue      OSWER/OECA agrees with this            Agency agrees, but did not provide
      the use of terms such as NPL       recommendation to use consistent       specific actions or milestone dates for
      caliber and NPL equivalent to      terminology. As we understand          implementation.
      describe the status of SA sites,   OIG’s concern, some Regions
      or the SAS approach.               refer to sites following the SA        For the OIG to close this
                                         approach as “NPL caliber” or           recommendation, in its response to the
                                         “NPL equivalent.”                      final report, EPA will need to (1)
                                         OSWER/OECA agrees to address           Reconsider the recommendation and (2)
                                         this issue as part of its efforts to   Provide specific planned actions on how
                                         improve consistency and                it will “educate Regions” and provide
                                         transparency. As described above       milestone dates for completion.
                                         in our comment on
                                         Recommendation 4-2,
                                         OSWER/OECA intends to
                                         continue educating EPA Regions
                                         about implementation of the SA
                                         approach, including appropriate
                                         communications with PRPs.

5-3   Finalize, and release to the       OSWER/OECA agrees with this            Agency agrees and provided a
      public, the TAP guidance for       recommendation. We anticipate          milestone date.
      SA sites (as appropriate, after    issuing this guidance by the end
      OSWER and OECA address             of this fiscal year.
      recommendation 4-3).




                                                         32 

              SUPPLEMENTAL RESPONSE ON RECOMMENDATION 4-3


OIG 3/19/07 Draft Recommendation 4-3: Revise the SAS guidance and the SAS general notice
letter, as appropriate, to include language from an EPA legal opinion that states EPA has the
authority to include each of the four provisions (community involvement, financial assurance,
NRD claims, and NPL listing) in SAS agreements. The opinion should include a statement that
no due process violations are associated with these provisions.

OSWER/OECA disagrees with this recommendation.

EPA’s principal authority for administrative agreements and consent decrees is CERCLA §122,
which gives EPA very broad authority to enter into settlements that are in the public interest.
OECA has developed model language and documents (including the four SA provisions) with
the advice of Office of General Counsel (OGC) and in consultation with the U.S. Department of
Justice (DOJ). This process with OGC and DOJ is intended to assure that the actions proposed
in the guidance are within our legal authority. OGC has reviewed OIG’s draft report, and
continues to advise us that EPA has the legal authority to enter into agreements that include the
SA provisions and that negotiating and entering such agreements does not deprive potentially
responsible parties (PRPs) of due process. In these circumstances, we do not think it is
appropriate to suggest that there are doubts about legal authority or due process, by amending the
guidance.

When EPA has PRPs clean up sites, it starts negotiations using standardized model agreements
to help ensure that public health and the environment are protected. OGC and DOJ review and
concur on the model language and documents. As discussed in the 2004 Revised SAS Guidance,
the four model SA provisions are narrowly drawn and intended to put EPA, the community, and
natural resource trustees in equivalent positions to their positions at NPL sites.

Following is an explanation of each SA provision and how it ensures equivalent protections for
sites using the SA approach as for sites listed on the NPL.
    •	 Technical Assistance Plan (TAP) provision. At sites proposed to or listed on the NPL,
        Technical Assistance Grants (TAGs) are available to qualified community groups to
        allow them access to independent technical assistance. Generally, TAG funds are used
        by the community groups to hire a technical advisor who can then help them understand
        the cleanup at the site. The TAP provision in SA agreements gives community groups
        the same opportunity to have independent technical assistance. Because TAGs are not
        awarded at every NPL site, the model TAP provision is contingent on demonstrated
        community interest, and the PRP has no TAP responsibilities until a qualified community
        group comes forward. This provision can be omitted if the site is already proposed for
        listing on the NPL or if an alternative source of independent technical assistance is
        available to the community.
    •	 Financial Assurance. EPA requests that PRPs agree to provide financial assurance in
        consent decrees at NPL-sites and at sites using the SA approach for the estimated costs of
        the RA. Because of limitations on accessing the Trust Fund at sites not listed on the
        NPL, Regions request that PRPs provide some amount of that financial assurance through
        a liquid instrument(s). Generally, the amount of liquid financial assurance should be



                                               33 

       equal to the costs that would be needed to keep cleanup work going through the listing
       process. The SA financial assurance provision does not ask for any additional financial
       assurance – it asks for a part of the standard financial assurance to be established in an
       immediately accessible form.
    •	 “Agreement not to challenge listing” provision. This provision puts EPA in the same
       position as if the site has been proposed to the NPL, as the site would be proposed based
       on conditions prior to the PRPs beginning work. With this provision, PRPs agree not to
       challenge the listing of the site based on changed site conditions due to partial cleanup.
       This puts EPA in an equivalent position to a site already listed on the NPL if a PRP does
       just enough work so that the site will no longer score high enough for listing, and then
       stops work. In that scenario, a PRP that has agreed to this provision cannot challenge
       EPA’s listing the site on the NPL based on having performed a partial cleanup. This
       provision is quite narrowly drawn; a PRP retains their right to challenge the listing on
       other grounds. This provision is not needed at sites already proposed for listing on the
       NPL.
    •	 Natural Resources Damages provision. This provision protects Federal Trustee interests
       to the same degree these interests are protected at NPL sites. The provision clarifies that
       the applicable statute of limitations is CERCLA Section 113(g)(1), which is the
       applicable statute of limitations for NPL sites or facilities at which an RA is scheduled.
       EPA anticipates an RA will be performed at sites using the SA approach. This provision
       can be omitted when DOJ agrees (on behalf of the trustees) that there are no natural
       resource damage issues at stake at a site.

The SA approach is appropriate at sites where PRPs are able and willing to perform the
necessary cleanup. PRPs may choose not to enter into any agreement with EPA if they do not
like the terms of the agreement. Just as with other settlement negotiations, PRPs can assert that a
provision is not necessary or appropriate for a specific site. As set forth in the Revised SAS
Guidance, EPA regions may omit or modify SA provisions with approval from OSWER/OECA
and/or DOJ. Indeed, OSWER/OECA has approved such requests from EPA regions when
omission or revision of the SA provisions is appropriate based on specific site circumstances.

Notably, similar negotiation issues arise at many Superfund sites, not just those using the SA
approach. In settlement negotiations, all parties have the ability to make their needs known and
understood and to elect to accept or reject the stated needs of the other parties. Negotiating
parties may decide it is in their best interest to accept a provision that they do not like in order to
reach settlement; this situation occurs on both sides of the table. Ultimately, EPA cannot force
negotiating parties to sign a settlement agreement.


 OIG response:
 We removed this recommendation from the final report because the Agency provided
 documentation on its authority to include the provisions.




                                                  34 

                                        ATTACHMENT 2


     OIG Evaluation Draft Report: EPA Needs to Take More Action in Implementing 

                  Alternative Approaches to Superfund Cleanups (3/19/07) 


                       Detailed Comments Not Tied to Particular Recommendations

At a Glance
    •	 OSWER/OECA typically references the “SA approach” rather than the “SAS approach.”
       We feel this distinction recognizes that use of the SA approach may not define a site;
       there may be more than one approach being used at a site.
    •	 Here, and in other places in the draft report, OIG discusses the need to “finalize the
       universe of [SA] sites.” We suggest that more accurate wording would either be to
       “finalize the criteria for flagging in CERCLIS a site using the SA approach.” The SA
       “universe” will be dynamic.

        OIG response:

        The OIG is aware that the universe may be dynamic. The issue of flagging sites in
        CERCLIS is different than EPA deciding and finally releasing the list of “dynamic” SA
        sites. No change made to report.


   •	 We recognize that OIG has spoken with external parties recently about their views on the
      SA approach. However, references to comments made by internal and external parties in
      2004 (e.g., the 120 Day Study, the NACEPT Subcommittee report) no longer seem
      “recent” to us.

        OIG response:

        The OIG disagrees. Within the last year, many of the same concerns external parties
        made during the 120-Day Study were also communicated to us. We are unaware that the
        external parties have rescinded their prior comments. No changes made to report.


   •	 In the sidebar and under the heading “What We Found,” OIG characterizes external
      parties as “report[ing] problems” with the SA approach. OSWER/OECA suggests it
      would be more accurate to say that the external parties “raised questions or concerns.”

Chapter 1
   •	 The SA approach is used at sites where PRPs are viable and willing to enter into
      agreements. (See second bullet on page 2.)

        OIG response:

        Report revised to include: “viable and agreeable PRPs” as the 2004 Revised SAS
        guidance indicates.




                                                  35 

   •	 There is no one type of agreement that would include all four SA provisions. Therefore,
      it may be more accurate to say “agreements that contain one or more of the following
      provisions.” (See fourth bullet on page 2.)

        OIG response:

        Report revised to state “Sites with agreements that contain one or more of the following
        provisions.”

   •   In describing the Natural Resource Damages (NRD) provision, it may be more accurate
       to say “an agreement of the applicable statute of limitations” for NRD claims.


        OIG response:

        Report revised to state “An agreement of the applicable statute of limitations for Natural
        Resource Damages (NRD) claims.”


   •	 In the first full paragraph on page 3, and throughout the report, OIG refers to OECA as
      the lead on the SA approach, with OSWER providing support. As noted in our general
      comments, OSRE and OSRTI share responsibilities for implementing the SA approach
      and ask that this partnership be accurately reflected.

Chapter 2
   •	 We appreciate that OIG now generally refers to the SA “approach” rather than
      “program.” However, in several places, OIG still suggests that the SA “program” is not
      being managed appropriately. The SA approach is not a program, just one alternative
      available for cleaning up a Superfund site.

        OIG response:

        The OIG acknowledges the Agency’s position. However, by considering these activities as
        a program better ensures that the Agency will implement appropriate management controls
        to protect against fraud waste and abuse. We revised the sentence to read “EPA lacks
        reliable management information because it has not managed this approach with the
        necessary controls required to achieve desired outcomes.”




   •	 On page 4, OIG states that “[d]uring its internal review, OECA discovered that many SA
      sites initially designated by regions do not score 28.5 or higher.” OSWER/OECA
      believes that this statement needs additional context to be accurate. As you know, our
      internal review included a QA/QC of CERCLIS data on sites following the SA approach.
      We found that there were a number of sites where the SA flag should be removed. There
      were many reasons why these sites should not be flagged “SA”: some were proposed for



                                                   36 

       listing on the NPL and not following the SA approach; some were going to be addressed
       by the state; some were removal-only sites; and some did not score 28.5 or higher.

         OIG response:

         We made no change to the report. This statement refers to 13 sites EPA initially
         designated as SA sites that were later removed from the list of SA sites because they did
         not score 28.5 or higher. We recognize there are other reasons that EPA removed the SA
         designation from other sites, but this comment is not relevant to the discussion in Chapter
         2.



Chapter 3
   •	 Table 3-1 needs to be updated to reflect current GPRA measures. For example, “Final
      Remedy Selection” is no longer an OSWER GPRA measure.

Chapter 4
   •	 The OIG references feedback from its discussions with NAM. We request that the report
      reflect that NAM has not met with OSWER/OECA on this topic.

Appendix D
   •	 OSWER/OECA appreciates the effort to include more detail about its discussions with
      external parties and asks OIG to consider moving some or all of this discussion into
      Chapter 4 because it reflects some positive feedback on the SA approach from external
      parties.
   •	 OSWER/OECA suggests OIG remove the last sentence referencing the Supreme Court
      ruling in Cooper Industries, Inc. v. Aviall Services, Inc. Aviall-related issues are not
      unique to sites using the SA approach.




                                                   37 

                                                                         Appendix F


                             Distribution

Office of the Administrator
Assistant Administrator, OSWER
Assistant Administrator, OECA
Principal Deputy Assistant Administrator, OSWER
Principal Deputy Assistant Administrator, OECA
Deputy Assistant Administrator, OECA
Agency Followup Official (the CFO)
Agency Followup Coordinator
Director, Office of Site Remediation Enforcement, OECA
Deputy Director, Office of Site Remediation Enforcement, OECA
Deputy Assistant Administrator, Office of Air and Radiation
Director, OSRTI, OSWER
Director, Assessment and Remediation Division, OSRTI, OSWER
Office of General Counsel
Assistant General Counsel (CERCLA), Solid Waste & Emergency Response
        Law Office, OGC
Director, Regional Support Division, OECA
Deputy Division Director, RSD, OECA
Assistant Branch Chief, State and Tribal Site Identification Branch, OSWER
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
OSWER Audit Followup Coordinator
OECA Audit Followup Coordinator
Acting Inspector General




                                      38 

